       June 21, 2002




   Financial Management

   Controls Over the Computerized
   Accounts Payable System at Defense
   Finance and Accounting Service
   Columbus
   (D-2002-113)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAPS(W)               Computerized Accounts Payable System for Windows
CCR                   Central Contractor Registry
CEFT                  Corporate Electronic Funds Transfer
C.F.R.                Code of Federal Regulations
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DPPS                  Defense Procurement Payment System
EDM                   Electronic Document Management
EFT                   Electronic Funds Transfer
FAR                   Federal Acquisition Regulation
FEV                   Front-End Validation
GAO                   General Accounting Office
IG                    Inspector General
U.S.C.                United States Code
          Office of the Inspector General of the Department of Defense
Report No. D-2002-113                                                        June 21, 2002
   (Project No. D2000FI-0248.002)

      Controls Over the Computerized Accounts Payable System at
          Defense Finance and Accounting Service Columbus

                                    Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for making vendor payments or supervising any aspect of the commercial
payment process should read this report. The report discusses how to properly support
payments, and the need to comply with statutory and regulatory requirements when
making vendor payments.

Background. The Defense Finance and Accounting Service (DFAS) Columbus uses the
Computerized Accounts Payable System for Windows to make vendor payments for
various Defense agencies. During FY 2001, DFAS Columbus made 143,077 payments,
valued at $2 billion, using the Computerized Accounts Payable System for Windows. On
April 1, 2001, the Director, DFAS, capitalized all commercial payment resources under
the Director, Commercial Pay Services. DFAS plans to begin replacing the
Computerized Accounts Payable System for Windows with the Defense Procurement
Payment System beginning in October 2003. The estimated completion date for the
transition is March 2004.

This is the third in a series of audit reports addressing the controls over the Computerized
Accounts Payable System. The previous two reports concluded that weaknesses existed
in the management controls associated with making vendor payments using the
Computerized Accounts Payable System for Windows.

Results. DFAS Columbus did not implement effective and consistent management
controls to make properly supported vendor payments and to detect and correct erroneous
payments. An estimated 37,918 payments made from May 1 through July 31, 2000,
lacked proper supporting documentation. DFAS Columbus also made an estimated
4,369 erroneous payments, including 1,314 Fast Payments without subsequently verifying
proper receipt of goods. The Director, Commercial Pay Services, needed to implement
procedures to ensure that all documents supporting vendor payments were received in the
mailroom, screened for compliance with 5 Code of Federal Regulations Part 1315, and
immediately scanned into the Electronic Data Management system for indexing and
payment processing. DFAS Columbus should also manually certify all payments and
verify and use the information in the Central Contractor Registry to update vendor
information in Computerized Accounts Payable System for Windows, and make
Electronic Funds Transfers as required in the Debt Collection Improvement Act of 1996.
Further, Fast Payment procedures should be improved to ensure that goods paid for are
received and accepted by Government activities. See the finding section for the detailed
recommendations.
Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer concurred with one of the recommendations. The Deputy Director, Commercial
Pay Services, concurred with four recommendations and partially concurred with seven
recommendations. DFAS Columbus should not wait until an approved sampling plan is
implemented before certifying vendor payments valued at less than $25,000 or making
miscellaneous payments to vendors and individuals in accordance with the Debt
Collection Improvement Act of 1996. Also, management did not agree that annual post-
payment audit reviews are an inadequate control to ensure that a closed-loop system
exists for matching Fast Payment vouchers with corresponding receiving documents. The
Director, DoD Education Activity, partially concurred with the need to examine the
communications between schools and contracting activities and DFAS paying offices.
However, we do not agree that the time needed to deliver goods overseas and delays
inherent in the matching process is a proper justification for making Fast Payments. New
facsimile technology implemented by DFAS Columbus provides a timely communication
vehicle for transmitting receiving reports from overseas locations. See the finding section
for a additional discussion of management comments and the management comments
section for the complete text. We request that DFAS and the DoD Education Activity
provide comments on the final report by July 22, 2002.

Management Actions. The Under Secretary of Defense (Comptroller) changed DoD
Regulation 7000.14-R, volume 10, chapter 1, to require the use of Electronic Funds
Transfer unless a waiver is granted. The change also reiterated the requirements of
5 Code of Federal Regulations Part 1315 describing what constitutes proper supporting
documentation. DFAS has begun to provide training on the standards for properly
supporting vendor payments and entering information into the Computerized Accounts
Payable System for Windows. The Director, DoD Education Activity, took actions that
should reduce the number of Fast Payments.




                                            ii
Table of Contents

Executive Summary                                i

Background                                      1

Objectives                                      2

Finding
     Processing Vendor Payments                  3

Appendixes
     A. Scope and Methodology
          Scope                                 17
          Methodology                           17
          Management Control Program Review     18
     B. Prior Coverage                          20
     C. Progress in Transitioning to DPPS       21
     D. Certification Memorandum                23
     E. Statistical Sampling Methodology        25
     F. Erroneous and Unsupported Payments      28
     G. Report Distribution                     32


Management Comments
     Under Secretary of Defense (Comptroller)   35
     Defense Finance and Accounting Service     36
     Department of Defense Education Activity   43
Background
    Vendor Payments. As a general rule, vendor payments must be supported by an
    obligation document such as a contract, purchase order, or other document
    obligating DoD to pay for goods or services; an invoice; and a receiving report.
    The current vendor payment process depends on the receipt and processing of
    hard-copy documents. Technicians review supporting documents for accuracy
    and completeness before entering them into the Computerized Accounts Payable
    System for Windows (CAPS[W]). Certifying officials should compare the
    computed payment vouchers to the supporting invoices, receiving reports, and
    contract or obligation documents to ensure the accuracy of the payment
    information before approving payment. Following certification, the payment
    information is loaded into the disbursing system. The disbursing system uses the
    payment transactions generated by CAPS(W) to make disbursements.

    Automated Systems for Making Vendor Payments. The Defense Finance and
    Accounting Service (DFAS) uses 15 different systems to make contract and
    vendor payments. CAPS(W) is one of the systems used by DFAS Columbus in
    Columbus, Ohio, to make vendor payments for Defense agencies. DFAS
    Columbus primarily receives payment data from manual sources for entry into
    CAPS(W). CAPS(W) uses both automated and manual controls to maintain
    accurate and complete data. DFAS originally planned to test the implementation
    of the Defense Procurement Payment System (DPPS) at DFAS Columbus in
    August 2001. However, as of December 2001, transition to DPPS has slipped to
    FY 2003. The delays in transitioning to DPPS are discussed in Appendix C.

    Realignment of Vendor Payment Operations. On March 29, 2001, the
    Director, DFAS, announced the capitalization of all commercial payment
    resources under the Commercial Pay Business Line. Effective April 1, 2001, the
    Director, Commercial Pay Services, became responsible for the commercial pay
    business line. This business line includes two product lines (contract pay and
    vendor pay). The Vendor Pay Product Line encompasses entitlement
    determination for contracts not administered by the Defense Contract
    Management Agency, transportation payments, and miscellaneous payments to
    businesses and individuals.

    Related Audit Reports. General Accounting Office (GAO) Report
    No. GAO/AIMD-98-274, “Improvements Needed in Air Force Vendor Payment
    Systems and Controls,” September 28, 1998, recommended that DFAS strengthen
    payment-processing controls by establishing separate organizational
    responsibilities for entering payment data and revising vendor payment access
    levels to correspond with the new structure.

    The Inspector General of the Department of Defense (IG DoD) issued two reports
    in this series that address vendor payment processes at other DFAS field sites that
    used the Computerized Accounts Payable System. IG DoD Report No.
    D-2002-008, “Controls Over the Computerized Accounts Payable System at
    Defense Finance and Accounting Service Kansas City,” October 19, 2001,
    concluded that the structure and business practices of the vendor payment office at

                                         1
     DFAS Kansas City did not provide efficient and effective controls over vendor
     payments. Access over CAPS(W) also needed improvement and vendor
     payments were often not properly supported. IG DoD Report No. D-2002-0056,
     “Controls Over Vendor Payments Made for the Army and Defense Agencies
     Using the Computerized Accounts Payable System,” March 6, 2002, concluded
     that DFAS field sites had not implemented effective and consistent management
     controls to detect and correct improperly supported and erroneous payments.
     Also, system access did not properly segregate duties and was not consistently
     assigned to payment technicians at DFAS field sites.


Objectives
     Our objectives were to evaluate the controls associated with making payments
     using CAPS(W) and track DFAS progress in transitioning to DPPS. Progress in
     transitioning to the DPPS is discussed in Appendix C. We also evaluated the
     effectiveness of the management control program as it relates to making vendor
     payments using CAPS(W). See Appendix A for a discussion of the audit scope
     and methodology and our review of the management control program. See
     Appendix B for prior coverage.




                                        2
           Processing Vendor Payments
           DFAS Columbus did not implement effective and consistent internal
           controls to make properly supported vendor payments and to detect and
           correct erroneous payments. An estimated 37,918 payments made from
           May 1 through July 31, 2000, lacked proper supporting documentation.
           DFAS Columbus also made an estimated 4,369 erroneous payments,
           including 1,314 Fast Payments made without subsequently verifying
           proper receipt of goods. Unsupported and erroneous payments occurred
           because DFAS Columbus did not:

                 •   use the Electronic Data Management (EDM) system effectively,

                 •   implement proper certification and Fast Payment procedures,

                 •   meet the requirements of the Debt Collection Improvement Act
                     of 1996, and

                 •   ensure that supporting documents were proper and complete
                     before making payments.

           As a result, DoD managers assumed an increased risk that payments were
           not being made in compliance with 5 Code of Federal Regulations
           (C.F.R.) Part 1315 and DoD managers could continue to make erroneous
           payments to vendors.


Procedures, Guidance, and Requirements
    Electronic Data Management. EDM technology involves the collective
    application of three tools: imaging, electronic foldering, and workflow. Together,
    these tools automate the management of incoming documents and standardize
    business processes for receiving, date stamping, tracking, and storing documents.
    The EDM program was implemented by DFAS to:

           •   provide users on-line access to financial documents and information,

           •   resolve the management of large volumes of hard-copy documents,

           •   ensure the consistent implementation of business practices throughout
               DFAS,

           •   improve customer service, and

           •   reduce operating costs.

    Certification Requirements. 31 United States Code (U.S.C.) section 3325,
    “Vouchers,” states that disbursing officers will not disburse monies except as
    provided on a voucher certified by an appointed certifying official. Sound fiscal


                                         3
management and internal control practices dictate that the certifying officials be
independent and organizationally separate from the disbursing officer. 31 U.S.C.
section 3528, “Responsibilities and Relief from Liability of Certification
Officials,” states that a certification official is responsible for ensuring that:

       •   proper information is stated on a voucher, supporting documents, and
           records;

       •   certified vouchers are computed correctly;

       •   proposed payments are legal from the appropriations or funds
           involved; and

       •   repayment is made if the payment is determined to be illegal,
           erroneous, or incorrect.
DoD Regulation 7000.14-R, volume 5, chapter 33, implements these
requirements. By affixing a manual, digital, or electronic signature to a voucher,
the certifying official states that the items listed are correct and proper for
payment from the appropriation or other fund designated and the payment is legal,
proper, and correct. Certifying officials have pecuniary liability for erroneous
payments resulting from negligent performance of their duties.

Required Payment by Electronic Funds Transfer (EFT). The Debt Collection
Improvement Act of 1996, as codified in 31 U.S.C. section 3332, “Required
Direct Deposit,” requires that all Federal payments after January 1, 1999, be made
using EFT unless a payment meets specific waiver requirements. The Department
of Treasury, in 31 C.F.R. Subpart 208.3, “Payment by Electronic Funds Transfer,”
and Subpart 208.4, “Waivers,” allows specific waivers to the EFT requirements.
The Federal Acquisition Regulation (FAR) subpart 32.11, “Electronic Funds
Transfer,” requires EFT to be used for making contract payments and Defense
Federal Acquisition Regulation Supplement (DFARS) subpart 204.73, “Central
Contractor Registration,” requires registration in the Central Contractor Registry
(CCR). Contractor EFT information is downloaded to the Corporate EFT (CEFT)
database for vendor payment technicians to view and obtain remittance
information. Based on these criteria, most payments should be sent using EFT,
and the CEFT should be used for obtaining vendor remittance information.

Fast Payment Requirements. 5 C.F.R. Part 1315.6, “Payment Without Evidence
That Supplies Have Been Received (Fast Payment),” states that in limited
situations, payments may be made without evidence that supplies were received.
However, receiving activities are required to promptly inspect and accept supplies
acquired under these procedures and must ensure that receiving reports and
payment documents are matched. DoD Regulation 7000.14-R, volume 10,
chapter 10, section 1003, “Fast Payment,” states that all invoices to be paid using
Fast Payment procedures must be prominently marked “FAST PAY.”




                                     4
    Section 1003 also identifies the minimum standards for making Fast Payments.
    Two of the standards follow:


           •   a closed-loop process that matches payments to material receipts and
               resolves non-receipt or other discrepancies

           •   a management control/audit program for post-payment examination of
               payments made under Fast Payment

    FAR 13.4, “Fast Payment Procedure,” defines conditions for using Fast Payments,
    and preparation and execution of contracts. FAR 52.213-1, “Fast Payment
    Procedure,” contains the required contract clause and outlines responsibility for
    preparing invoices.


Internal Control Environment
    Office Structure and Business Rules. DFAS Columbus experienced many of
    the problems identified at other DFAS field sites and described in the previous
    reports in this series. For example, DFAS Columbus did not develop an office
    structure with standard business rules to achieve effective control over the
    documents supporting vendor payments and to maintain consistency in making
    vendor payments. Incoming vendor payment documents were not properly
    received, date-stamped, controlled, or tracked during the vendor payment process.
    DFAS Columbus also did not adequately control and monitor access to
    CAPS(W). Previous reports in this series recommended that DFAS create a
    standard office structure that includes a separate certification branch. We also
    recommended the development of business rules that require certification officials
    to thoroughly review information supporting payments and certify all
    disbursement vouchers. In response to IG DoD Report No. D-2002-008, the
    Director, Commercial Pay Services, stated that the commercial pay business line
    would develop a standard organization structure for use at all vendor payment
    sites.

    Controls Supporting Compliance. DFAS Columbus also experienced problems
    in using EDM, certifying payments, and making payments in accordance with the
    Debt Collection Improvement Act of 1996. In addition, DFAS Columbus made
    erroneous and improperly supported payments and did not properly implement
    Fast Payment procedures. Failure to comply with the certification requirements in
    31 U.S.C. 3325 and the payment requirements in the Debt Collection
    Improvement Act of 1996 are management control weaknesses that require
    immediate correction or reporting as part of the Annual Statement of Assurance.


DFAS Columbus Payment Procedures
    Use of Electronic Data Management. Controls over the payment process at
    DFAS Columbus did not ensure that payment documents were properly received

                                        5
and tracked within the EDM system. EDM was installed at DFAS Columbus in
December 1999, but strict business rules to define the proper flow of documents
into the system were not established or enforced. Supporting documents for most
CAPS(W) vendor payments should have been processed through the EDM
system.

Vendor payment supervisors and technicians circumvented EDM by permitting
incoming vendor payment documents to be received on stand-alone facsimile
machines located throughout the vendor payment area. Additionally, the
mailroom delivered unopened express mail directly to vendor pay supervisors and
technicians instead of opening and scanning the documents into the EDM system.
Technicians entered information from the hard-copy documents into CAPS(W)
and computed payments before documents were scanned into EDM. By not
requiring that all incoming vendor payment documents be received and scanned
directly into EDM, DFAS Columbus did not ensure that all documents were
date-stamped, controlled, screened, and tracked.

Documents supporting miscellaneous payments were also not scanned into EDM
until payments were processed. Miscellaneous payment documents were
date-stamped by the vendor pay mailroom and routed directly to a Front-End
Validation (FEV) technician. The FEV technician was responsible for validating
funds and distributing documents to vendor payment technicians for payment
processing. Documents were not recorded as received at DFAS Columbus until
information was input into CAPS(W) or documents were scanned into EDM.
During our site visit, we observed loose vendor payment documents stacked
around an FEV technician’s desk. On one occasion, we observed the FEV
technician box up and take home stacks of vendor payment documents. We
informed DFAS and immediate action was taken to ensure that technicians did not
take home vendor payment documents. Documents improperly controlled and
taken outside DFAS Columbus could have easily been altered, lost, or destroyed.

DFAS Columbus should implement procedures to ensure that all documents
supporting vendor payments are received in the mailroom, screened for
compliance with 5 C.F.R. Part 1315, and immediately scanned into the EDM
system for indexing and payment processing. Business rules are needed to ensure
that the internal controls within EDM are not circumvented and the full benefits of
a paperless environment are achieved.

Certification Procedures. DFAS Columbus procedures for certifying vendor
payments did not comply with 31 U.S.C. 3325 and DoD Regulation 7000.14-R,
volume 5. DFAS Columbus did not certify payments valued individually at less
than $25,000. If the payment was less than $25,000, CAPS(W) was programmed
to automatically certify the payment voucher and send the voucher to the update
file for use by the disbursing system. Consequently, all payments were not
reviewed by an authorized certifying official to determine whether they were
legal, proper, and correct.

An internal review conducted by DFAS Arlington in February 1999 identified that
DFAS Columbus was not properly certifying payments under $25,000. DFAS
Arlington reported that CAPS(W) and two other vendor payment systems did not
meet the requirements in DoD Regulation 7000.14-R, volume 5, chapter 33, for



                                     6
electronic certification and that manual certification was required for all vendor
payments. The condition continued to exist during our audit. We reported our
concerns in a memorandum to the Director, DFAS, on March 20, 2001
(Appendix D). We suggested that DFAS take immediate action to ensure that all
vendor payments were manually certified before disbursement.

A review of vouchers paid on November 29, 2001, showed that DFAS Columbus
had not altered certification procedures as we suggested, and payments under
$25,000 continued to be automatically certified by CAPS(W). In December 2001,
DFAS Columbus personnel confirmed that only payments of $25,000 or more
were manually certified. For payments under $25,000, a daily list of vouchers
awaiting payment was signed and sent to disbursing. However, the individual
signing the list did not validate the individual payments to ensure that they were
legal, proper and correct. The Director, Commercial Pay Services, should require
manual certification of vendor payments.

Method of Payment. DFAS Columbus did not always make payments as
required by the Debt Collection Improvement Act of 1996. DFAS Columbus paid
individuals and vendors by check although payment by EFT was required. DFAS
needs to develop controls to ensure that all payments are made using EFT unless
the recipient meets the waiver requirements in 31 C.F.R. subpart 208.4 permitting
DFAS to make a check payment.

       Review of Sample Payments. A review of 249 sample payments made
from May 1 through July 31, 2000, showed that DFAS Columbus did not fully
comply with the requirements for making EFT payments. Seventy-six of the
sample payments were made using a check without proof that the EFT waiver
requirement had been met.

       •   Twenty-two of the payments were to contractors who should have been
           registered in the CCR and received an EFT payment. Review of the
           CCR information showed that 19 of the vendors were properly
           registered and should have received an EFT payment. Three of the
           vendors were not registered and no payment should have been made
           until proper registration occurred or a waiver was granted.

       •   The remaining 54 payments were classified as miscellaneous payments
           because they were made to individuals, telephone companies, and
           bankcard service companies. DFAS Columbus should have required
           the companies entitled to payment to register in the CCR and the
           individuals should have provided proper EFT information prior to
           payment. Most of the individuals receiving payments were
           Government employees who already received Federal salary EFT
           payments. Existing EFT information should have been used in making
           the miscellaneous payments.

        DFAS Columbus Practices. DFAS Columbus technicians did not always
review the information contained in the CEFT to ensure that a payment was sent
to the vendor correctly. One technician informed us that she used the remittance
information in the contract or invoice to make payments instead of the CEFT.
The technician also stated that technicians would not use the CEFT information

                                     7
    until an automated feed was developed. Vouchers paid on December 13, 2001,
    indicated that DFAS Columbus continued to pay by check when EFT payments
    should have been made. For example:

               •   Check payment number 80759625 was made to the Army Air Force
                   Exchange Service for $2,252,413 even though the vendor was properly
                   registered in the CCR.

               •    Check payment number 80758667 was made to Sacramento
                   Municipal Utilities for $7,385.64 even though the vendor was properly
                   registered in the CCR.

    As of January 2002, the requirements in the Debt Collection Improvement Act of
    1996 had not been incorporated in DoD Regulation 7000.14-R, volume 10. As
    these requirements have been in effect for more than 3 years, the Under Secretary
    of Defense (Comptroller) should update DoD Regulation 7000.14-R, volume 10,
    and include detailed waiver procedures. In response to IG DoD Report No.
    D-2002-0056, the Director, Commercial Pay Services, stated that CAPS(W) is
    scheduled to interface with CEFT in the Version 6.0 release scheduled for
    November 2002. Until the interface is complete, DFAS Columbus should require
    that payment technicians and certification officials validate the remittance
    information when computing and certifying payments in CAPS(W) by ensuring
    that the information matches the most current information in the CEFT. If a
    vendor is not properly registered or the registration has lapsed or expired, no
    payment should be made until the proper CEFT information is provided, unless
    the vendor or individual receives an appropriate waiver from DFAS. The waiver
    should be retained with the payment file at the DFAS payment office.


Sample of Vendor Payments
    A review of a stratified random sample of 41,140 payments made by DFAS
    Columbus from May 1 through July 31, 2000, showed that an estimated
    37,918 payments were not supported in compliance with 5 C.F.R. Part 1315
    requirements. DFAS Columbus also made an estimated 4,369 erroneous
    payments, including 1,314 Fast Payments made without subsequently verifying
    proper receipt of goods.* Appendix E gives details on sample projections. The
    results were consistent with the findings in the previous IG DoD reports.

    Sample Methodology. To determine whether DFAS Columbus made properly
    supported vendor payments using CAPS(W), we obtained a population of
    41,140 CAPS(W) payments, valued at about $424.4 million, made from May 1
    through July 31, 2000. From this population, we selected a sample of
    249 payments in 3 strata. We used the criteria in 5 C.F.R. Part 1315 to assess the
    documents (invoice, receiving report, and obligation document) that supported


    *
        The combined total of the estimated improperly supported (37,918) and erroneous (4,369)
        payments exceeds the 41,140 payments in the population because the erroneous payments were
        also included in the estimate of improperly supported payments.



                                                8
each sample item. We used the sample to estimate the types of payments in the
population. Details concerning the sample methodology are contained in
Appendix E.

Proper Supporting Documentation. The table shows the projections of the
estimated number of payments that were not properly supported for each type of
payment. Of the 249 sample items reviewed, 145 were contractual payments and
104 were miscellaneous payments. Appendix E gives details of projections and
confidence levels.


                Estimate of Payments Not Properly Supported

                                                     Estimate of Improperly
  Type of Payment           Total Payments            Supported Payments

     Contractual                 23,206                      22,674

   Miscellaneous                 17,934                      15,244

        Total                    41,140                      37,918


Documents supporting contractual payments must meet the 5 C.F.R. Part 1315
requirements to be considered proper. We held documentation supporting
miscellaneous payments to similar standards. The sample showed that receiving
reports supporting 226 of the sample payments did not meet 5 C.F.R. Part 1315
requirements. When our results were projected over the population,
37,918 receiving reports were improper and should have been returned to the
receiving activity for correction. DFAS Columbus did not strictly enforce the
requirements for proper supporting documents and an environment was created
where improperly supported or erroneous payments could be made without
detection. Nine payments, valued at $151,773.03, were questionable payments
because the payments were made without proper supporting documents in the
payment office or the documents supporting the payments were inconsistent.
Appendix F gives details of the unsupported and erroneous payments. DFAS
Columbus should train individuals on the standards for properly supporting
payments and entering payment data into CAPS(W).

Erroneous Payments. Our sample identified 29 erroneous payments made to
vendors and other authorized individuals. When projected over the population,
4,369 payments were erroneous. The 29 erroneous payments resulted in
overpayments of $10,629.41 and underpayments of $3,804.68. A payment was
considered erroneous if the vendor was paid the incorrect amount based on the
documents supporting the payment. Entering incorrect information in CAPS(W)
was the cause of most of the overpayments and underpayments.

Table F-1 (in Appendix F) shows, by category, the number of erroneous payments
and the dollar value of overpayments and underpayments. Twenty of the


                                   9
erroneous payments were under $25,000 and bypassed the certification process
that might have detected the payment errors. DFAS Columbus needs to take steps
to resolve the erroneous payments and other questionable payments identified in
Appendix F that can be cost-effectively corrected.

Fast Payment Procedures. Based on analysis of the 35 Fast Payments in our
sample, DFAS Columbus did not properly implement Fast Payment procedures as
required in DoD Regulation 7000.14-R, volume 10, chapter 10. An estimated
1,314 payments were made without verifying proper receipt of the goods after
payment, as required. DFAS Columbus also did not ensure that invoices were
marked “FAST PAY.” The use of Fast Payment procedures by the DoD
Education Activity may not have been appropriate.

        Absence of Adequate Fast Payment Internal Controls. A closed-loop
process did not exist to ensure that all goods were received when DFAS
Columbus made Fast Payments. Neither DFAS nor the DoD Education Activity
followed up to ensure proper receipt of goods for seven of the Fast Payments in
our sample. The DoD Education Activity contracted for all the goods in the
sample that were paid for using Fast Payment procedures. When projected over
the population, 1,314 Fast Payments were made without verifying proper receipt
of goods. In addition, discrepancies between payments and receiving information
were not always identified or resolved. For example, a payment to Maritek Inc.
for $4,004 was disbursed on June 12, 2000. The invoice contained charges for
13 separate items totaling $3,949, plus $55 for freight charges. As of
December 6, 2001, the receiving information only showed one item from the
invoice, valued at $1,590, as being received. Appendix F provides a list of the
seven Fast Payments in our sample for which we could not verify proper receipt
and acceptance of goods. DFAS Columbus and the DoD Education Agency need
to improve procedures and ensure a closed-loop process exists to match payments
with corresponding receiving documentation. DFAS should also develop a
management control and post-payment audit program that verifies that the Fast
Payment procedures function properly.

        Use of Proper Invoices. DFAS Columbus made payments to vendors
using Fast Payment procedures even though most of the invoices did not meet the
invoicing requirements in the contracts. Only eight of the invoices supporting the
Fast Payments were marked “FAST PAY,” as required by contract. In addition,
only one invoice contained all the information required for a proper invoice.
Payment technicians should return invoices not meeting all the requirements
stipulated in the Fast Payment contract clause.

        Use of Fast Payment Procedures. The use of Fast Payment procedures
by the DoD Education Activity may not have been appropriate. Fast Payment
guidance in 5 C.F.R. Part 1315 states that both a geographical separation and a
lack of adequate communication between receiving activities and the contracting
and paying offices are necessary to make payments without evidence of receipt.
All 35 Fast Payments in our sample were for supplies shipped to DoD schools
around the world. The individual schools received the supplies and entered the
receipt information into an electronic system that interfaced with the Base
Operating Supply System and uploaded receiving information for contracting and
paying offices to view. Even without an electronic receiving system, receiving



                                    10
    information could be sent via facsimile machines from schools to contracting and
    paying offices in a matter of minutes. The DoD Education Activity should
    examine the communication between the schools and contracting and paying
    offices and determine whether the use of Fast Payment is appropriate.


Summary
    The actions to be taken by the Director, Commercial Pay Services, to standardize
    vendor pay operations and improve system controls in response to
    recommendations in our previous two reports should promote a strong
    management control environment and reduce the number of improperly supported
    and erroneous payments. The Director, Commercial Pay Services, should also
    implement procedures to ensure that all documents supporting vendor payments at
    DFAS Columbus are received in the mailroom, screened for compliance with
    5 C.F.R. Part 1315, and immediately scanned into the EDM system for indexing
    and payment processing. DFAS Columbus should also manually certify all
    payments and verify and use the information in the CCR to update vendor
    information in CAPS(W) and make EFT payments as required in the Debt
    Collection Improvement Act of 1996. Further, Fast Payment procedures should
    be improved to ensure that goods paid for are received and accepted by
    Government activities.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller)
    update DoD Regulation 7000.14-R, volume 10, to require the use of
    Electronic Funds Transfer for all payments made using vendor payment
    systems unless the requirement is properly waived in accordance with
    31 Code of Federal Regulations Part 208, section 208.4.

    Under Secretary of Defense (Comptroller) Comments. The Acting Deputy
    Chief Financial Officer concurred and stated that DoD Regulation 7000.14-R,
    volume 10, chapter 1, was updated in March 2002. The regulation now requires
    the use of EFT for all payments made using DoD vendor payment systems, unless
    a waiver is granted.

    2. We recommend that the Director, Commercial Pay Services, take the
    following actions at Defense Finance and Accounting Service Columbus:

           a. Implement procedures to ensure that all documents supporting
    vendor payments are received in the mailroom, screened for compliance with
    5 Code of Federal Regulations Part 1315, and immediately scanned into the
    Electronic Data Management system for indexing and payment processing.

    DFAS Comments. The Deputy Director, Commercial Pay Services, partially
    concurred and stated that all documents supporting payments will be received in

                                       11
the mailroom. DFAS Columbus will remove the stand-alone facsimile machines
and implement the use of EDM Fax and RightFax. After a cursory review, a
payment technician will examine documents for compliance during Tier II
indexing. He also stated that large documents, such as centrally billed accounts
and Powertrack payments, were scanned after payment.

Audit Response. The DFAS comments were responsive. We agree that
examining documents for compliance with statutory and regulatory requirements
is best accomplished during Tier II indexing. Scanning large documents into
EDM after payment is a reasonable approach for processing certain payments.

       b. Require the manual certification of all vendor payments made
using the Computerized Accounts Payable System for Windows.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that DFAS Columbus was working with DFAS Arlington to
establish a sampling plan that meets the requirements of the Certifying Officer’s
Legislation.

Audit Response. The DFAS comments were partially responsive. GAO Policy
and Procedures Manual, Title 7, “Fiscal Guidance,” May 18, 1993, limits the use
of statistical sampling procedures for examining payment vouchers to those under
$2,500. Consequently, all payments valued at $2,500 and more must be manually
certified. In addition, until a prepayment sampling plan is approved and
implemented, individual vendor payment vouchers valued at less than $2,500
must be certified. Although we identified this issue to the Director, DFAS, on
March 20, 2001, DFAS Columbus has not yet been directed to manually certify all
payments. We request that DFAS reconsider its position and provide additional
comments on the final report.

       c. Develop procedures to require that all payments be made using
Electronic Funds Transfer unless the Electronic Fund Transfer requirement
has been properly waived. The procedures should:

             (1) Require vendors and contractors paid using
miscellaneous payment procedures to properly register in the Central
Contractor Registry.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that contracting officers are responsible for inserting the
appropriate FAR clauses in the contracts that require contractors to register in the
CCR. He stated that DFAS Columbus has procedures to require all vendors to
register in the CCR. However, some vendors do not have to register in the CCR.
To encourage participation, DFAS Columbus provides copies of the CCR
registration form to vendors and assists with the registration process. The Deputy
Director stated that about 30 percent of miscellaneous payments are non-EFT
payments. He identified utility companies as being exempt from complying with
the mandatory EFT requirements. He also stated that the Army Air Force
Exchange Service was exempt from the EFT requirement because it is a
Government entity.




                                     12
Audit Response. The DFAS comments were partially responsive. 31 U.S.C.
section 3332 requires that all Federal payments after January 1, 1999, be made
using EFT. The Secretary of the Treasury was given authority to grant waivers.
The Treasury has not granted any specific waivers for utility or interagency
payments. Further, the vendors DFAS comments refer to were actually properly
registered in the CCR and should have received an EFT payment. The cost of
making an EFT payment is less than the cost of processing a check payment. We
request that DFAS reconsider its position and provide additional comments on the
final report.

              (2) Require that miscellaneous payments to individuals
receiving Federal salaries be made using Electronic Funds Transfer.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated there was no mandate for Government employees to receive
reimbursement for tuition and sundry items using EFT. He also stated that the
CEFT database receives and stores remittance information from all DoD military
and civilian payroll systems.

Audit Response. The DFAS comments were responsive. DFAS should make
every effort to pay individuals using EFT, since this method is more cost effective
than making check payments. The required EFT data for Federal employees is
available in DoD payroll systems and should be passed to the CEFT for use by
vendor payment offices..

       d. Require payment technicians and certification officials to validate
the remittance information in the Computerized Accounts Payable System
for Windows against information in the Corporate Electronic Funds
Transfer database when processing payments.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that the current procedure is to compare EFT information to
the data in the CEFT database at the time invoices are processed. He further
stated that the next version of CAPS(W) would include a systemic interface with
the CEFT.

Audit Response. The DFAS comments were responsive. The information in the
CEFT database should be used when processing payments.

      e. Train vendor pay personnel on the standards for properly
supporting vendor payments and entering information into the
Computerized Accounts Payable System for Windows.

DFAS Comments. The Deputy Director, Commercial Pay Services, concurred
and stated that vendor payment personnel would receive detailed training. In
addition, the commercial pay business line will develop a tracking mechanism to
ensure that employees are trained at all vendor pay sites.

        f. Resolve erroneous payments and other questionable payments
identified in the audit report that can be cost-effectively corrected.


                                    13
DFAS Comments. The Deputy Director, Commercial Pay Services, concurred
and stated that a review of the payments was in process. DFAS Columbus will
take corrective actions on those payments that can be cost-effectively resolved.

       g. Improve procedures for making Fast Payments by:

               (1) Returning improperly marked invoices to vendors for
correction.

DFAS Comments. The Deputy Director, Commercial Pay Services, concurred
and stated that DFAS Columbus would return all improper invoices to vendors.

            (2) Matching Fast Payments to corresponding receiving
documents and resolving any discrepancies.
DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that DoD Regulation 7000.14-R, volume 10, chapter 1,
requires disbursing offices to ensure the performance of post-payment audits. He
stated that DFAS ensures a closed-loop process by performing post-payment
audits on a sample of all entitled documents and notifying receiving activities
when documentation of receipt and acceptance has not been provided.

Audit Response. The DFAS comments were partially responsive. DFAS must
work with receiving activities to ensure receipt and acceptance of all goods paid
for using Fast Payment procedures. Post-payment audits that identify instances
where receipt and acceptance have not occurred provide proof that a closed-loop
process of matching payment documents to receiving reports does not exist. The
management control and audit program should define how discrepancies
identified through post-payment audits would be resolved and the actions to be
taken to ensure a closed-loop process for matching payment documents to
receiving reports. We request that DFAS reconsider its position and provide
additional comments on the final report.

             (3) Establishing a management control and audit program for
the post-payment examination of payments.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that the post-payment audit team reviews payments on an
annual basis. He also stated that the post-payment audit performed in DFAS
Columbus in October and November 2001 showed a 98.6 percent accuracy rate.

Audit Response. The DFAS comments were partially responsive. DFAS should
develop a comprehensive management control and audit program that verifies the
existence of a closed-loop process for matching payments to material receipts by
reviewing Fast Payments. The audit program should also define the actions to be
taken if receipt and acceptance cannot be confirmed. We agree that post-payment
audits can be used in determining whether Fast Payment procedures are
functioning properly. However, we believe that the post-payment audits should
be performed at least quarterly and include Fast Payments as a distinct aspect of
the audit. We request that DFAS reconsider its position and provide additional
comments on the final report.



                                    14
       h. Report non-compliance with the certification requirements in
31 United States Code 3325 and the payment requirements in the Debt
Collection Improvement Act of 1996 as material control weaknesses in the
Annual Statement of Assurance until corrected.

DFAS Comments. The Deputy Director, Commercial Pay Services, partially
concurred and stated that DFAS Columbus would report the failure to comply
with certification requirements in 31 U.S.C. 3325 as a material weakness.
However, he did not agree to report non-compliance with the Debt Collection
Improvement Act of 1996 as a material weakness.

Audit Response. The DFAS comments were partially responsive. The Debt
Collection Improvement Act requires that EFT be used to make all Federal
payments after January 1, 1999. DFAS Columbus paid individuals and vendors
by check when payments should have been made electronically. Most vendor
payments met the requirements of a Federal payment and should have been paid
electronically unless a waiver was granted. EFT information existed within the
CEFT for most of the payments DFAS Columbus made by check. We request
that DFAS reconsider its position and provide additional comments on the final
report.

3. We recommend that the Director, Department of Defense Education
Activity, examine the communication between the schools and the
contracting and paying offices and determine whether the use of Fast
Payment procedures is appropriate.

Department of Defense Education Activity Comments. The Director, DoD
Education Activity, partially concurred with the recommendation. The Director
stated that changes have been made to contracting operations which should reduce
the need to use Fast Payment procedures as a means for ensuring timely
reimbursement to vendors. He stated that changes in the rules for the use of
Government purchase cards for overseas purchases have reduced the need for Fast
Payments. However, the Director stated that Fast Payment procedures continued
to be necessary to pay delivery orders for some supplies due to inherent delays in
matching invoices to receiving reports and the time needed for an overseas freight
shipment to reach its destination. He stated that such delays placed an undue
burden on contractors who may have to wait up to 4 months for payment. The
Director further stated that he would examine current and future invoicing and
payment practices and the feasibility of incorporating e-commerce initiatives into
operations as part of the process of consolidating contracting operations.

Audit Response. The DoD Education Activity comments were partially
responsive. We acknowledge the viability of using the Government purchase card
as a replacement to making payments using Fast Payment procedures. The use of
other emerging e-commerce initiatives, such as Wide-Area Workflow, should also
be pursued. In the meantime, RightFax technology currently in use at DFAS
Columbus provides the necessary communications to ensure timely receipt and
matching of hard–copy payment documents. Consequently, the extensive use of
Fast Payment procedures is not justified in the current communications
environment. We request that the Director reconsider his position and provide
additional comments on the final report.

                                    15
Appendix A. Scope and Methodology
Scope
    Work Performed. We evaluated the controls associated with CAPS(W) and the
    computation of vendor payments at DFAS Columbus. During FY 2000,
    176,662 vendor payments, valued at $1.7 billion, were made using CAPS(W).
    We reviewed a stratified random sample of 249 of the 41,140 payments made
    from May 1 through July 31, 2000. We also reviewed payments made in
    November and December 2001 to determine whether the problems identified
    continued to exist. We considered the organizational and system changes made
    by DFAS Columbus since July 31, 2000.

    Limitations to Scope. We discussed with system program managers the plans to
    transition CAPS(W) to DPPS and reviewed documentation related to the status of
    the transition. Because the schedule for transitioning CAPS(W) to DPPS has
    slipped significantly, we limited our review of transition plans. See Appendix C
    for additional details regarding progress in transitioning to DPPS.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Methodology
    To assess the management controls over CAPS(W), we reviewed system access
    lists, compared the access levels of employees to their job position, observed
    system access by users, and discussed procedures for controlling and changing
    passwords with systems personnel. We also discussed the functionality of
    CAPS(W) with systems personnel at DFAS Indianapolis and DFAS Columbus.
    We also reviewed vendor payment operations at DFAS Columbus and held
    discussions with key DFAS financial managers.

    From data files obtained from DFAS Columbus, we randomly selected a stratified
    sample of 249 vendor payments made using CAPS(W) from May 1 through
    July 31, 2000. (See Appendix E for additional details.) From January through
    December 2001, we reviewed operations at DFAS Columbus and the support for
    the payments at DFAS Columbus to determine whether payments were properly
    authorized, approved, and supported. Obligation documents, invoices, receiving
    reports, and payment vouchers were reviewed for accuracy and propriety. We
    compared payment vouchers to source documents to determine whether payments:

           •   were properly supported,

           •   were made in the correct amount,

           •   cited proper appropriation data,


                                          16
           •   were based on the correct invoice receipt dates and acceptance dates,

           •   were properly certified, and

           •   were sent to the correct vendor via the required means of delivery.

    We also reviewed guidance for making vendor payments and compared guidance
    issued by DFAS Arlington and DFAS Columbus with guidance in 5 C.F.R.
    Part 1315; the FAR; DFARS subpart 232.9; and DoD Regulation 7000.14-R,
    volumes 5 and 10. We contacted selected receiving organizations to determine
    whether they received goods and services for which payments had been made.
    We also contacted several vendors to determine the status of invoices and whether
    they had received payments. We assessed improvements in vendor payment
    operations by assessing changes in guidance and the actions DFAS took in
    response to prior reviews of vendor payment operations.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from CAPS(W), we did not evaluate the adequacy of all the system’s general
    and application controls. We determined that password and system controls over
    CAPS(W) were not adequate and data entered at one location could be altered or
    removed by individuals at other locations. However, we established data
    reliability for the payments we reviewed by comparing data output to source
    documents and through discussions with vendors and receiving activities. Our
    tests disclosed that the data were sufficiently reliable to support the audit
    conclusions and recommendations.

    Use of Technical Assistance. We obtained assistance in developing a statistical
    sampling plan and analyzing sample results from a statistician in the Quantitative
    Methods Division, Office of the Assistant Inspector General for Auditing.

    Audit Dates and Standards. This financial-related audit was performed from
    January 2001 through January 2002 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38 “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the management
    controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over vendor payments made using CAPS(W).




                                        17
Specifically, we reviewed management controls over vendor payments at DFAS
Columbus. We also reviewed management’s self-evaluation of those controls.

Adequacy of Management Controls. We identified a material management
control weakness, as defined by DoD Instruction 5010.40, in the controls
associated with making vendor payments using CAPS(W). We discussed the
material management control weakness in IG DoD Audit Report
No. D-2002-0056. Management controls at DFAS Columbus also were not
adequate to ensure that all payments made using CAPS(W) were properly
certified as required by 31 U.S.C. 3325, sent via EFT as required by the Debt
Collection Improvement Act of 1996, properly supported, and made for correct
amounts. Recommendation 2, if implemented, will improve controls over vendor
payments. A copy of the report will be provided to the senior official in charge of
management controls in DFAS.
Adequacy of Management’s Self-Evaluation. DFAS Columbus managers
identified vendor payments as an assessable unit and, in our opinion, incorrectly
identified the risk associated with vendor payments as moderate. The problems
we identified require the assessment of risk to be high. The Director, Commercial
Pay Services, did not identify the lack of adequate certification and Fast Payment
procedures and the failures in making properly supported vendor payments using
EFT as management control weaknesses in the DFAS Columbus FY 2001 Annual
Statement of Assurance for Vendor Pay Services. Failure to comply with the
certification requirements in 31 U.S.C. 3325 and payment instructions in the Debt
Collection Improvement Act of 1996 are significant management control
weaknesses that should be reported in the DFAS Annual Statement of Assurance
as part of an overall material management control weakness related to making
vendor payments using CAPS(W).




                                    18
Appendix B. Prior Coverage
     During the last 5 years, GAO and the Inspector General of the Department of
     Defense have issued several audit reports discussing issues related to vendor
     payments. Unrestricted GAO reports can be accessed on the Internet at
     http://www.gao.gov. Unrestricted IG DoD reports can be accessed on the Internet
     at http://www.dodig.osd.mil/audit/reports.


General Accounting Office
     GAO Report No. GAO-01-309 (OSD Case No. 3029), “Excess Payments and
     Underpayments Continue to be a Problem at DoD,” February 22, 2001

     GAO Report No. GAO/AIMD-00-10 (OSD Case No. 1919), “Increased Attention
     Needed to Prevent Billions in Improper Payments,” October 29, 1999

     GAO Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvements
     Needed in Air Force Vendor Payment Systems and Controls,” September 28,
     1998

     GAO Report No. GAO/OSI-98-15 (OSD Case No. 1687-A), “Fraud by an Air
     Force Contracting Official,” September 23, 1998


Inspector General of the Department of Defense
     IG DoD Report No. D-2002-0056, “Controls Over Vendor Payments Made for the
     Army and Defense Agencies Using the Computerized Accounts Payable System,”
     March 6, 2002

     IG DoD Report No. D-2002-008, “Controls Over the Computerized Accounts
     Payable System at Defense Finance and Accounting Service Kansas City,”
     October 19, 2001

     IG DoD Report No. D-2001-101, “Controls Over Electronic Document
     Management,” April 16, 2001

     IG DoD Report No. D-2001-075, “Standard Procurement System Use and User
     Satisfaction,” March 31, 2001

     IG DoD Report No. D-2001-029, “Controls Over the Electronic Document Access
     System,” December 27, 2000

     IG DoD Report No. D-2000-139, “Controls Over the Integrated Accounts Payable
     System,” June 5, 2000




                                       19
Appendix C. Progress in Transitioning to DPPS
   An announced audit objective was to evaluate the progress in transitioning
   CAPS(W) to the DPPS. DPPS is to be the standard system used for calculating
   contract vendor payments and selected other entitlements. Transitioning
   CAPS(W) to DPPS is essential in resolving long-standing commercial payment
   issues. DFAS originally planned to fully implement DPPS by the end of FY 2001.
   In June 2000, DFAS planned to begin using DPPS in August 2001 to make
   vendor payments that were being made using CAPS(W). During the audit, the
   milestone schedule for transitioning to DPPS slipped several times. As of
   December 21, 2001, the plan was to begin transitioning from CAPS(W) to DPPS
   in October 2003. We did not evaluate the reasons given for the delays in fielding
   DPPS.

   Implementation Delays. Implementation of DPPS is dependent on the success of
   the DoD End-to-End Finance and Procurement Joint Concept of Operations,
   which outlines the future DoD procurement, contract, and vendor payment
   process. The end-to-end concept depends on several systems and databases,
   including the Standard Procurement System, Defense Corporate Database,
   Defense Corporate Warehouse, and DPPS, seamlessly sharing data with each
   other. The Strategic Business Office at DFAS Columbus is responsible for
   ensuring the smooth transition to DPPS. System program managers informed us
   that software issues that typically occur during any large-scale system initiative
   have delayed the fielding of DPPS. Specifically, system program managers stated
   that DPPS was delayed for the following reasons.

          •   The user community needed several enhancements to be made to the
              DPPS business application in order to have confidence in the
              software's capability. These enhancements have taken time to design
              and develop. By the middle of 2002, all enhancement work for DPPS
              Release 0301 will be satisfied.

          •   It took more time than expected to test DPPS in an integrated
              (enterprise) environment to ensure the validity of the technical
              architecture.

          •   The Defense Corporate Database was not mature enough to allow
              deployment or integrated testing of the DPPS application.

   Program officials have revised the transition plan and now do not anticipate the
   complete transition from CAPS(W) to DPPS until March 2004. Table C provides
   the anticipated transition schedule from CAPS and the other legacy commercial
   payment systems to DPPS as of December 21, 2001.




                                       20
                  Table C. DPPS Transition Schedule

                                    Objective Start      Objective
            Objective                   Date           Completion Date

 Operational Assessment Vendor          July 2002       September 2002
    Payment Release (0301)

 Operational Test and Evaluation        July 2003        August 2003
     for Contract Payments

     CAPS Activation (Initial        October 2003         March 2004
      Operating Capability)

    Mechanization of Contract        October 2003         March 2004
     Administration Services

   Integrated Accounts Payable          March 2004         July 2004
              System

     Standard Accounting and         August 2004        December 2004
        Reporting System

  Standard Automated Voucher        December 2004       February 2005
       Examining System

  Defense Integrated Subsistence     February 2005         May 2005
      Management System

 Automated Voucher Examining            July 2005       September 2005
     and Disbursing System
  (Full Operating Capability)


Because legacy systems have not been upgraded due to the anticipated transition
to DPPS, controls over vendor payments remain weak and DoD continues to be
susceptible to erroneous payments. DFAS needs to consider whether changes
should be made to existing systems to make them current with management
control requirements.

Future Audit Coverage. The IG DoD has ongoing audits covering aspects of the
DoD End-to-End Finance and Procurement Joint Concept of Operations and the
transition of the Mechanization of Contract Payment Services system to DPPS.
An audit of the security controls of the DPPS began on November 7, 2001.
Progress in transitioning to DPPS will continue to receive audit emphasis.




                                   21
Appendix D. Acting Assistant Inspector General
             for Auditing Memorandum




                       22
23
Appendix E. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to estimate
    the number of vendor payments that did not have proper documentation by type of
    payment and type of document. The statistical sampling plan was also used to
    estimate the number of erroneous payments, once it was determined that a
    payment was not properly supported. The payments were reviewed to determine
    whether documentation was adequate and complied with the Prompt Payment
    Act. The sample was further used to estimate the number of payments being
    made using Fast Payment procedures. The attribute sampling procedures do not
    allow the projection of dollar values of discrepancies found.

    Universe Represented. DFAS Columbus provided a database of vendor
    payments made using CAPS(W) from May 1 through July 31, 2000. The file
    contained records on 41,140 vendor payments. The total dollar value of the
    vendor payments in the population was $424.4 million.

    Sampling Design. We used a stratified sampling design developed by a
    statistician within the Office of the Assistant Inspector General for Auditing to
    determine whether or not the vendor payments had proper documentation. The
    population was divided into 3 strata: payments valued at less than $2,500;
    payments valued at least $2,500 but less than $1 million; and payments valued at
    $1 million or more. A total of 249 payments (145 contractual and
    104 miscellaneous) were randomly selected: 150 from the first stratum, 70 from
    the second stratum, and 29 from the third stratum.


Sampling Results
    Table E-1 identifies the statistical estimates of the number of contract and
    miscellaneous payments contained in the population.

                           Table E-1. Type of Payment
                          (99-Percent Confidence Level)

     Type of
     Payment           Lower Bound            Point Estimate        Upper Bound

    Contractual            19,671                  23,206               26,741

   Miscellaneous           14,399                  17,934               21,469




                                         25
 We are 99 percent confident that from 19,671 to 26,741 of the payments were
 contractual payments. Also, we are 99 percent confident that from 14,399 to
 21,469 were miscellaneous payments.

 Table E-2 identifies the statistical estimates of vendor payments that were not
 properly supported by type of payment.

                Table E-2. Payments Not Properly Supported
                       (99-Percent Confidence Level)

  Type of
  Payment           Lower Bound            Point Estimate        Upper Bound

 Contractual            19,123                 22,675                26,226

Miscellaneous           11,786                 15,244                18,702

 We are 99 percent confident that from 19,123 to 26,226 contractual payments
 were not properly supported. Also, we are 99 percent confident that from 11,786
 to 18,702 miscellaneous payments were not properly supported.

 Table E-3 identifies the statistical estimates of contractual payments that were not
 properly supported by document type.

                      Table E-3. Payments Not Properly
                       Supported by Document Type
                       (99-Percent Confidence Level)

   Type of
  Document          Lower Bound            Point Estimate        Upper Bound

   Invoices             9,523                  12,839                16,156

  Receiving             35,986                 37,918                39,851
   Reports

   Contracts            1,284                   3,217                5,149

 We are 99 percent confident that from 9,523 to 16,156 vendor payments were not
 properly supported due to improper invoices. We are 99 percent confident that
 from 35,986 to 39,851 vendor payments were not properly supported due to
 improper receiving reports. We are 99 percent confident that from 1,284 to
 5,149 vendor payments were not properly supported due to improper obligation
 documents. Point estimates exceed the total population of 41,140 because one or
 more of the supporting documents may have caused a single payment to be not
 properly supported, so separate attributes were projected.




                                      26
Table E-4 identifies the statistical estimates of contractual and miscellaneous
payments that were erroneous payments.

                     Table E-4. Erroneous Payments
                      (99-Percent Confidence Level)


   Lower Bound                 Point Estimate                Upper Bound

       2,204                       4,369                        6,635

We are 99 percent confident that from 2,204 to 6,635 of the vendor payments
were erroneous payments. A payment was considered erroneous if the vendor was
paid the incorrect amount based on the documents supporting the payment.

Table E-5 identifies the statistical estimates of the number of contractual
payments made using Fast Payment procedures and Fast Payments made for
which proof of receipt of goods was not verified.

                         Table E-5. Fast Payments
                       (99-Percent Confidence Level)

  Type of
  Payment            Lower Bound            Point Estimate        Upper Bound

Fast Payments            4,163                   6,793                  9,423

Fast Payments             51                     1,314                  2,578
Made Without
Proper Receipt

We are 99 percent confident that from 4,163 to 9,423 contractual payments were
made using Fast Payment procedures. Also, we are 99 percent confident that from
51 to 2,578 of the Fast Payments were made without follow-up actions taken to
ensure proper receipt of goods.

Each of the individual estimates is projected at the 99-percent confidence level.
However, taking a conservative approach, reviewing each of the 8 estimates as an
independent projection, we estimate the overall confidence level for all
8 estimates simultaneously are approximately 90 percent.




                                     27
Appendix F. Erroneous and Unsupported
            Payments
    From our sample of 249 payments made from May 1 through July 31, 2000, we
    identified 29 erroneous payments. We considered a payment to be erroneous if
    the vendor was paid the incorrect amount. We identified $10,629.41 in
    overpayments and $3,804.68 in underpayments. Nine additional payments,
    valued at $151,773.03, were made without proper supporting documents or the
    supporting documents contained information that was inconsistent with the
    payment. We questioned the appropriateness of DFAS Columbus making these
    nine payments based on available information.


Incorrect Amounts Paid to Vendors
    DFAS Columbus made 29 vendor payments in the incorrect amount resulting in
    overpayments of $10,629.41 and underpayments of $3,804.68. Table F-1 shows,
    by category, the number of erroneous payments and dollar value of overpayments
    and underpayments.

                      Table F-1. Incorrect Amounts Paid to Vendors
                        Number of
      Category          Erroneous          Amount Overpaid     Amount Underpaid
                        Payments
   Incorrect                14                $ 2,131.99             $3,274.91
   Information
   Entered in
   CAPS(W)
   Miscalculation            3                      0                   529.77
   of Payment Due
   Date
   Vendor Paid               2                  3,129.29                   0
   More Than
   Amount Due
   Payment for               3                    235.22                   0
   More Than
   Authorized
   Fast Payments             7                  5,132.91                   0
   Without
   Evidence of
   Receipt
      Total                 29                $10,629.41              $3,804.68




                                      28
Incorrect Information Entered Into CAPS(W). Technicians incorrectly entered
information from supporting documents into CAPS(W). The incorrect input of
dates used to calculate payment due dates and the amounts due vendors caused
five overpayments totaling $2,131.99 and nine underpayments totaling $3,274.91.
The following list provides pertinent information on the 14 erroneous payments.

Voucher               Voucher               Overpayment             Remedial
Number                  Date               (Underpayment)          Action Taken
254815                7/03/2000             $ 2,003.53                  Yes
223935                5/03/2000                  80.89                  No
242592                6/07/2000                  21.86                  No
242348                6/06/2000                  16.00                  Yes
242069                6/06/2000                   9.71                  No
223939                5/03/2000                  (1.39)                 No
248515                6/20/2000                  (3.20)                 No
250752                6/23/2000                  (3.37)                 No
240244                6/01/2000                 (13.00)                 Yes
244498                6/12/2000                 (22.48)                 No
246126                6/14/2000                 (27.92)                 No
244614                6/12/2000                (220.01)                 No
233699                5/19/2000                (276.87)                 No
240787                6/02/2000              (2,706.67)                 No

In all cases, supporting documentation identified that the technician had made an
error in computing the payment. Certifying officials should have detected these
errors and returned the payments for correction.

Miscalculation of Payment Due Date. Technicians miscalculated the payment
due dates on three payments. As a result, DFAS underpaid three invoices by
$529.77. In each of the three cases, the payments were not paid on the expected
payment date and interest payments were not recalculated. As a result, the
vendors were paid the incorrect amount of interest. The following list identifies
information on each of the three payments, including the amount of the
underpayment and whether subsequent action was taken to pay the vendor the
underpaid amount.

Voucher               Voucher                                       Remedial
Number                  Date               (Underpayment)          Action Taken
244664                6/12/2000                $ (5.12)                 No
263383                7/20/2000                (114.44)                 No
223114                5/02/2000                (410.21)                 No

Vendor Paid More Than Amount Due. Two vendors were paid more than they
were due. Technicians entering and paying current billing charges from credit
card statements caused two overpayments in our sample. The charges during the
current billing period on the statements exceeded the amounts actually due the
vendors. Credit card statements were not being reconciled by approving officials
or vendor pay technicians before payment. The following list identifies the two
overpayments.




                                    29
    Voucher               Voucher                                     Remedial
    Number                  Date               Overpayment           Action Taken
    266065                7/26/2000             $3,106.51                 No
    243640                6/08/2000                 22.78                 No

    Payments for More Than Authorized. Vendors were paid more for goods and
    services than authorized in obligation documents supporting the payments. The
    following three payments were paid in the incorrect amounts because either the
    invoice or receiving report was not consistent with the contract.



    Voucher               Voucher                                     Remedial
    Number                  Date               Overpayment           Action Taken
    261372                7/19/2000               $124.89                 No
    262833                7/19/2000                109.33                 No
    239045                5/31/2000                  1.00                 No

    Fast Payments Without Evidence of Receipt. Receipt information was not
    matched to each Fast Payment made by DFAS Columbus. Seven Fast Payments
    were identified in our sample for which no evidence of receipt of items was found
    in the Base Operating Supply System over one year after items were shipped. The
    following list provides pertinent information on the seven payments.

    Voucher               Voucher                                     Remedial
    Number                  Date               Overpayment           Action Taken
    244561                6/12/2000             $2,359.00                 No
    248661                6/20/2000              1,679.80                 No
    262327                7/18/2000                517.95                 No
    245304                6/13/2000                235.50                 No
    245162                6/13/2000                226.68                 No
    237498                5/26/2000                 94.52                 No
    250712                6/23/2000                 19.46                 No


Missing or Inconsistent Supporting Documents
    We questioned the appropriateness of DFAS Columbus making nine payments,
    valued at $151,773.03, based on information available in the vendor payment
    office. The payments were made without proper supporting documents or the
    supporting documents contained information that was inconsistent with the
    payment. We subsequently determined that the vendors were entitled to the
    payments. Table F-2 shows the number of payments by category and the dollar
    value of the payments that should not have been made until proper documentation
    was obtained.




                                       30
         Table F-2. Missing or Inconsistent Supporting Documents

                                                      Total Dollar Value of
          Category            Number of Payments            Payments

 No Receiving Report                   5                        $ 1,966.46

 No Invoice                            3                        117,030.57

 Sent to Incorrect Address             1                         32,776.00

              Total                    9                       $151,773.03


No Receiving Report. The following five payments were made without a
receiving report.

Voucher Number                 Payment Date                    Amount
265465                          7/25/2000                      $754.13
227227                          5/08/2000                       504.00
249385                          6/21/2000                       372.75
223648                          5/03/2000                       299.00
244237                          6/09/2000                        36.58

No Invoice. The following three payments were made without an invoice.

Voucher Number                 Payment Date                    Amount
260564                          7/13/2000                   $88,470.09
247415                          6/16/2000                    24,965.86
250752                          6/23/2000                     3,594.62

Payment Sent to Incorrect Address. The following check payment was sent to
the incorrect address.

Voucher Number                 Payment Date                    Amount
239655                          5/31/2000                   $32,776.00




                                  31
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logisitics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Commercial Pay Services
Director, Defense Logistics Agency
Director, Defense Commissary Agency
Director, Department of Defense Education Activity


Non-Defense Federal Organization
Office of Management and Budget




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
Government Reform




                                          33
Under Secretary of Defense (Comptroller)
Comments




                      35
Defense Finance and Accounting Service
Comments




                      36
37
38
39
40
41
42
Department of Defense Education Activity
Comments




                      43
44
Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Carmelo G. Ventimiglia
George C. DeBlois
Michelle D. Pippin
Rebecca L. Niemeier
Lusk F. Penn
